U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mohammed Jabateh v. United States, No. 20-1369
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 26,
2021. The government’s response is now due, after one extension, on June 1, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 1, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1369
JABATAH, MOHAMMED
USA

PETER GOLDBERGER
50 RITTENHOUSE PLACE
ARDMORE, PA 19003
610-649-8200
PETER.GOLDBERGER@VERIZON.NET

